  Report No. D-2009-118          September 29, 2009




Internal Controls Over Naval Special Warfare Command
          Comptroller Operations in Support of
                Contingency Operations
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.


Suggestions for Audits
To suggest or to request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations

FMR                           Financial Management Regulation
GWOT                          Global War on Terror
NSW                           Naval Special Warfare
NSWG                          Naval Special Warfare Group
OEF                           Operation Enduring Freedom
OIF                           Operation Iraqi Freedom
SEAL                          Sea, Air, Land
STARS-FL                      Standard Accounting and Reporting System, Field Level
USSOCOM                       United States Special Operations Command
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202-4704


                                                                      September 29,2009

MEMORANDUM FOR DEPUTY ASSISTANT SECRETARY OF THE NAVY
                 (FINANCIAL OPERATIONS)
               COMMANDER, NAVAL SPECIAL WARFARE COMMAND
               NAVAL INSPECTOR GENERAL


SUBJECT: Internal Controls Over Naval Special Warfare Command Comptroller
          Operations in Support of Contingency Operations
          (RepOltNo, D-2009-1l8)

We are providing this report for your information and use. We considered management
comments on a draft of this report when preparing the final report. The Commander,
Naval Special Warfare Command comments, which were endorsed by the Assistant
Secretary of the Navy (Financial Management and Comptroller), Deputy Assistant
Secretary (Financial Operations), conformed to the requirements of DoD Directive
7650.3; therefore, additional comments are not required.

We changed the phrase global war on terror in the title of this report to contingency
operations. Tlu'oughout the report, we use the plu'ase global war on tenor because this
was the commonly used phrase to describe the supplemental funds used to support
contingency operations during the time of the audit.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868.



                                            /~a.m~
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D-2009-118 (D2009-D000FN-0075.000)                            September 29, 2009


              Results in Brief: Internal Controls Over Naval
              Special Warfare Command Comptroller
              Operations in Support of Contingency
              Operations
                                                            report obligations and expenditures
What We Did                                                  under the correct operation (3 of 45 line
Our objective was to determine whether internal              items) or cost code (6 of 45 line items),
controls properly support and account for Naval             accurately report obligations and
Special Warfare Command’s 511 line items                     expenditures (7 of 45 line items),
totaling $86.9 million in obligations and                   capture actual expenditures monthly
$49.2 million in expenditures in support of the              (6 of 45 line items), or
Global War on Terror (GWOT). We compared                    provide supporting documentation for
supporting documentation for 45 line items                   obligations and expenditures (6 of 45
totaling $14.2 million in obligations                        line items).
and $8.9 million in expenditures to the FY 2008
Naval Special Warfare Command GWOT                    What We Recommend
Report. We tested internal controls over              We recommend that the Commander, Naval
comptroller operations for:                           Special Warfare Command:

      justifying funds spent,                              design and implement a standard coding
      accounting for existence of assets and                structure to record obligations and
       other associated supporting                           expenditures and compile GWOT
       documentation for items purchased with                reports to ensure accuracy;
       GWOT funds,                                          revise and implement standard operating
      reporting obligated and expended                      procedures for reporting obligations and
       amounts,                                              expenditures under the correct operation
      capturing reported amounts, and                       and cost code, validate amounts, report
      maintaining supporting documentation                  actual expenditures monthly, and
       for financial transactions.                           maintain adequate supporting
                                                             documentation for an audit trail; and
What We Found                                               train components to ensure consistent
The Command components had internal                          preparation of reports.
controls in place to provide justification for
obligating and expending GWOT funds for               Management Comments and
all 45 line items tested. The components also         Our Response
accounted for all 14 line items tested for
                                                      The Commander, Naval Special Warfare
existence. However, the Command did not
                                                      Command, through the Deputy Assistant
implement adequate internal controls. We
                                                      Secretary of the Navy (Financial Operations),
identified the following internal control
                                                      agreed with our recommendations. The
weaknesses in the reporting of obligations and
                                                      comments were responsive. Please see the
expenditures in the FY 2008 GWOT Report.
                                                      recommendations table on the back of this page.
Components did not:


                                                  i
Report No. D-2009-118 (D2009-D000FN-0075.000)            September 29, 2009

Recommendations Table
Management                     Recommendations     No Additional Comments
                               Requiring Comment   Required
Commander, Naval Special                           1, 2.a, 2.b, 2.c, and 3
Warfare Command




                                        ii
Table of Contents

Results in Brief                                                                 i

Introduction                                                                     1

       Objective                                                                 1
       Background                                                                1
       Review of Internal Controls                                               3

Finding. Command’s Controls Over Financial Reporting in Support of the
         Global War on Terror                                                    4

       Management Actions                                                        9
       Management Comments on the Finding and Our Response                       9
       Recommendations, Management Comments, and Our Response                   11

Appendix. Scope and Methodology                                                 12

Management Comments

       Assistant Secretary of the Navy (Financial Management and Comptroller)   14

       Naval Special Warfare Command                                            15
Introduction
Objective
The objective of the audit was to determine whether internal controls properly support
and account for Naval Special Warfare Command’s obligations and expenditures in
support of the Global War on Terror (GWOT). 1 Specifically, we determined the
existence and correctness of supporting documentation for obligations and expenditures;
accuracy of computations; and approval, certification, and use of proper forms for
disbursing or deobligating funds. See the Appendix for a discussion of the scope and
methodology related to the audit objectives.

Background
The Naval Special Warfare Command is the maritime component of the United States
Special Operations Command (USSOCOM), activated by DOD before the
September 11, 2001, terrorist attacks on the United States. USSOCOM is responsible for
synchronizing DOD plans against global terrorist networks and conducting global
operations, including Operation Iraqi Freedom (OIF) and Operation Enduring Freedom
(OEF). Supplemental appropriations are provided by Congress to fund the incremental
costs incurred by DOD to support operational requirements. USSOCOM provides
supplemental funding for contingency operations to the Naval Special Warfare
Command. These funds are reported monthly on the cost of war report.

The Naval Special Warfare Command’s mission is “to organize, train, man, equip,
educate, sustain, maintain combat readiness and deploy Naval Special Warfare [NSW]
Forces to accomplish special operations missions worldwide.” NSW core training
focuses on strategic reconnaissance and direct action needed to combat current and future
terrorist threats.

The major operational components of the Command include four Naval Special Warfare
Groups (NSWG): NSWG-1 and NSWG-3 in Coronado, California, and NSWG-2 and
NSWG-4 in Norfolk, Virginia. These components deploy Sea, Air, Land (SEAL) Teams,
SEAL Delivery Vehicle Teams, and Special Boat Teams worldwide to meet the training,
exercise, contingency, and wartime requirements of theater commanders. The other two
operational components are the NSW Headquarters and NSW Center in Coronado,
California. The NSW Center, on the Naval Amphibious Base, serves as a training center
for NSW forces. NSW Headquarters is an Echelon II command and is responsible for the
planning, programming, budgeting, and executing of resources necessary to accomplish
the mission of NSW forces.

DOD Financial Management Regulation (DOD FMR), Volume 12, Chapter 23,
“Contingency Operations,” September 2007, states that components are required to report
actual expenditures for the month and estimates for the remainder of the year.

1
    Please see the memorandum at the beginning of this report for an explanation of the change to the title.


                                                        1
Additionally, organizations supporting a contingency are required to capture and report
all related obligations and expenditures at the lowest level of the organization.
Obligations are amounts representing orders placed, contracts awarded, services received,
and similar transactions during an accounting period that will require payment during the
same, or a future, period. Expenditures are the depletion of assets or incurrence of
liabilities (or a combination of both) during some period as a result of providing goods,
rendering services, or carrying out other activities related to an entity’s programs and
missions.

The DOD FMR further states that cost base structure codes (cost codes) form the basic
structure for reporting contingency operation costs. DOD FMR, Volume 6A, Chapter 2,
“Financial Reports Roles and Responsibilities,” November 2008, states that periodic
validation is required in the case of commitments, obligations, and accounts payable. It
also states that DOD components are responsible for ensuring the accuracy,
completeness, timeliness, and documentary support for all data generated and inputted
into finance and accounting systems and included in financial reports.

The Command components report obligations and expenditures on monthly and quarterly
GWOT reports that provide budgeting and execution data. The reports facilitate regular
communication between Command headquarters and its components about the actual cost
of war and enable them to make decisions on future spending. Components report
obligations and expenditures based on GWOT operations, such as OIF and OEF, and cost
categories, which provide cost comparisons from period to period. The cost categories
form the basic structure used by the Command headquarters to estimate and report
GWOT costs. Listed below are examples of the cost codes:

      Temporary Duty/Temporary Additional Duty, which includes the cost of travel,
       per diem, and lodging for military and civilian personnel that result from
       participation in or support to the contingency operation;

      Training, which includes the cost of pre-deployment training of units and
       personnel to participate in or support an operation as well as the costs associated
       with training troops and personnel during the contingency operation;

      Supplies and Equipment, which includes the cost of supplies and equipment that
       are directly attributable to a contingency operation;

      Clothing and Other Personnel Equipment and Supplies, which includes the cost of
       individual and organizational clothing and equipment not already issued to
       military personnel and civilian personnel deploying to, participating in, or
       supporting a contingency operation; and

      Contract Services, which includes costs associated with providing contract
       services used during a contingency operation not covered in any other cost
       category.



                                             2
The component comptroller is responsible for ensuring that the official accounting
records from the Standard Accounting and Reporting System, Field Level (STARS-FL)
accurately reflect the true financial position of the organization. For FY 2008, the
Command reported approximately $86.9 million in obligations and $49.2 million in
expenditures of GWOT supplemental funds. We judgmentally selected 45 line items
with reported values totaling $14.2 million in obligations and $8.9 million in
expenditures from a universe of 511 line items. Additionally we reviewed 104
expenditures for 14 line items for existence of assets.

Review of Internal Controls
We determined that internal control weaknesses in the Command existed as defined by
DOD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
January 4, 2006. The Command did not have the following internal controls for reporting
GWOT obligations and expenditures. The Command and its components did not report
obligations and expenditures under the correct operation and cost code, validate and
report actual expenditures monthly, maintain supporting documentation, and ensure
consistent preparation of GWOT reports. Implementing all recommendations will
improve the Command’s reporting procedures. We will provide a copy of this report to
the senior official responsible for internal controls in the Command and in the Office of
the Assistant Secretary of the Navy (Financial Management and Comptroller).




                                           3
Finding. Command’s Controls Over Financial
Reporting in Support of the Global War
on Terror
The Command components had internal controls in place to justify purchases using
GWOT funds and account for the existence of assets purchased. The components also
established some internal controls over financial reporting. However, they did not
implement adequate internal controls to ensure that financial transactions for obligations
and expenditures were:

          reported properly under the correct operation (3 of 45 line items) and cost code
           (6 of 45 line items) and reported all obligations and expenditures (7 of 45 line
           items),
          captured accurately (6 of 45 line items), and
          supported by sufficient documentation (6 of 45 line items).

As a result, the Command components inaccurately reported obligations and
expenditures, which increased the risk of misstatements in the GWOT Report. To
strengthen these internal controls, the Commander, Naval Special Warfare Command
should:

           design and implement a standard coding structure to record obligations and
            expenditures and compile GWOT reports,
           revise and implement standard operating procedures, and
           train components to improve reporting.

Justification and Existence
To test the internal controls over the justification of obligations and expenditures, we
reviewed 45 of 511 line items from the FY 2008 GWOT Report. These items totaled
$14.2 million in obligations and $8.9 million in expenditures. For our sample, the
Command had implemented internal controls to ensure proper justification and account
for the expenditure of GWOT funds. The components supported all 45 line items tested,
providing justification statements on why GWOT funds were obligated and expended.

To test the internal controls over the existence of GWOT expenditures, we then reviewed
104 expenditures from 14 line items, which totaled $2.9 million. Of the 104
expenditures, 88 associated assets were verified at the component sites. Additionally, 16
training attendance rosters or completion certificates were verified. Our audit showed
that the components had complied with DOD FMR, volume 12, chapter 23, by justifying
that contingency funds were properly used for the item reviewed.




                                                4
Reported Amounts
The Command did not implement adequate internal controls to ensure the proper
reporting of amounts on the FY 2008 GWOT Report. Specifically, the Command
components reported amounts under the incorrect operation or cost code. Components
also did not report some obligations and erroneously reported expenditures as obligations.
DOD FMR, volume 12, chapter 23, states that organizations supporting a contingency are
required to capture and report all related obligations and expenditures at the lowest level
of the organization. It further states that cost categories form the basic structure to report
contingency operation costs. Additionally, DOD FMR, volume 6A, chapter 2, states that
periodic validation is required in the case of commitments, obligations, and accounts payable.

GWOT Operations
Components reported 3 of 45 line items in the incorrect GWOT operation. Components
report obligations and expenditures by contingency operations, such as OIF or OEF.
Reporting costs under distinct operations facilitates budget execution for various
contingency operations. Specifically, the following items were placed in the incorrect
operation:

      NSWG-2 reported obligations and expenditures of $50,000 for the line item
       referred to as brackets under OIF when it should have reported them under
       OIF-Military Intelligence Program.

      NSWG-2 reported an obligation of $50,000 for adapters under OIF-Military
       Intelligence Program when it should have captured them in OIF.

      NSWG-3 reported an obligation and expenditure of $14,000 for delivery vehicles
       in the correct operation, OEF-Afghanistan. However, when NSWG-3 sent the
       report to the Command, it was reported under OEF-Philippines.

Two of the errors could have resulted in either an overstatement or understatement in
specific GWOT operations. One error resulted in either an overstatement or
understatement in specific GWOT operations.

GWOT Cost Codes
Components used incorrect cost codes to report obligations and expenditures for 6 of 45
line items in the report. Cost codes are categories used to identify the type of expense
and to help management identify how funds are being spent. Specifically, the following
incorrect cost codes were used:

      NSWG-2 reported obligations of $700,000 for items referred to as surveillance
       equipment under the contract services cost code instead of the supplies and
       equipment cost code. For this same item, NSWG-2 also reported a handling fee
       expenditure of $3,000 under the supplies and equipment cost code, but should
       have coded that amount as contract services.




                                              5
      NSWG-2 also reported an obligation and expenditure for $1,000 for recovery
       training travel under the training cost code instead of the temporary
       duty/temporary additional duty cost code.

      NSWG-4 reported some obligations and expenditures for three line items,
       weapons parts, craft and vehicle parts, and gear under the supplies and equipment
       cost code instead of clothing and other personnel equipment and supplies.

      NSW Headquarters reported obligations of $4 million and expenditures of
       $3.1 million for interpreters under the training cost code instead of contract
       services cost code.

These errors overstated one GWOT cost code while understating another.

Reported Obligations and Expenditures
Components did not properly report obligations and expenditures for 7 of 45 line items.
Specifically, the following obligations and expenditures were not properly reported:

      NSWG-1 did not accurately report $29,000 in obligations for vehicles.

      NSWG-1 did not report $34,000 in expenditures and did not accurately report
       $31,000 in obligations for medical training.

      NSWG-2 reported $167,000 in obligations for cameras, but did not record the
       expenditure once the amount was expended.

      NSWG-2 also reported $50,000 in obligations for adapters and zero in
       expenditures, but the amount was expended.

      NSW Headquarters overlooked and did not report $3,000 in obligations for a
       tactical controller.

      NSW Center reported $1,000 in expenditures for Great Lakes supplies, but
       nothing was expended.

      NSW Center reported $160,000 in expenditures for staff support travel, but
       STARS-FL data, travel vouchers, and travel receipts showed $165,000.

These errors caused obligations and expenditures to be reported inaccurately.

The Command did not have internal controls in place to ensure proper reporting because
their process for compiling the GWOT Report was manual and lacked thorough reviews.
The Command components extract obligation and expenditure data from STARS-FL by
using database queries, and subsequently, they enter the data into spreadsheets. The
components use the queries to collect GWOT obligations and expenditures. The database



                                             6
queries do not sort by operation and cost code. Therefore, the components sort the
obligations and expenditures manually into operation and cost codes.

The components reported items under the incorrect operation and cost code and did not
report all obligations and expenditures because they did not have sufficient standard
operating procedures on how to report them in some cases, they overlooked amounts or
they did not complete reviews of the data monthly. As a result, the Command did not
properly report obligations and expenditures on the FY 2008 GWOT Report, which
management uses to make decisions on spending, monitoring the cost of operations, and
formulating future budgets.

To improve the accuracy of reporting, the Command should reduce the amount of manual
sorting of data, update standard operating procedures to include a regular review and
validation of all reports. In addition, the Command should update standard operating
procedures to include guidance under the proper cost codes and train components on the
proper use of cost codes. The Command could reduce the amount of manual sorting by
using standard coding to record obligations and expenditures in STARS-FL to collect
information more effectively by operation and cost code to compile GWOT reports.

Capturing Reported Amounts
The Command did not capture actual expenditures each month for 6 of the 45 line items
on the report. Components are to report actual expenditures monthly to help management
identify how funds are being spent to support the mission. Specifically, the components
reported estimates instead of actual expenditures during FY 2008. For example:

      NSWG-3 captured estimates for the line item referred to as agile knife instead of
       actual obligations and expenditures. It overstated expenditures by $2,000.

      NSWG-4 captured a weighted average amount for weapons parts, craft and
       vehicle parts, and gear instead of actual expenditures for these items. It
       understated expenditures by $65,000 for the three items combined.

      NSWG-4 also captured estimated amounts for Federal Express instead of actual
       obligations and expenditures. It did not report $8,000 in expenditures during the
       last quarter of FY 2008.

      NSW Center captured estimates for Great Lakes supplies instead of the actual
       amount expended each month. However, the NSW Center reconciled the
       estimated amounts to the actual expenditures and deobligated the difference
       of $13,000 before year-end.

DOD FMR, volume 12, chapter 23, states that components are required to report actual
expenditures monthly. The Command did not follow the DOD FMR guidance and
capture actual expenditures monthly. As a result, the components misstated expenditures
and could have used the funds elsewhere to support the mission. The Command should



                                            7
revise and implement standard operating procedures that include reporting actual costs
monthly.

Supporting Documentation
The Command did not support the amounts reported for 6 of the 45 line items. NSWG-1
did not provide supporting documentation, such as invoices or requisition forms, for
financial transactions. NSWG-3 did not provide supporting documentation, such as
invoices and requisition forms, for financial transactions. NSWG-4 provided supporting
documentation for three items that could not be traced to each of the reported amounts.
Specifically, the components did not support reported amounts for the following:

          NSWG-1 reported $28,000 in expenditures for vehicles but provided invoices
           totaling $20,000.

          NSWG-1 could not provide invoices for $20,000 in expenditures for medical
           training. Additionally, the corresponding contract totaling $29,000 in obligations
           could not be provided.

          NSWG-3 could not provide supporting documentation for $2,000 in obligations
           and expenditures for agile knife.

          NSWG-4 provided supporting documentation totaling $1.1 million in obligations
           and $892,000 in expenditures that could not be traced to amounts reported for
           three line items because one job order number was used for weapons parts, craft
           and vehicle parts, and gear. 2

DOD FMR, volume 6A, chapter 2, states that DOD components are responsible for
ensuring the accuracy, completeness, timeliness, and documentary support for all data
generated and input into finance and accounting systems and included in financial
reports. DOD components are also required to maintain audit trails in sufficient detail to
permit tracing of transactions from their source to their transmission to Defense Finance
and Accounting Service. Audit trails are necessary to demonstrate the accuracy,
completeness, and timeliness of a transaction. In addition, audit trails provide
documentary support for all data generated by the DOD component.

The components did not follow DOD FMR guidance to support the amounts reported
because they were missing documentation or used one job order number. As a result, we
were not able to determine the validity or accuracy of some obligations and expenditures,
which increases the risk of misstatements and fraud. To reduce this risk and provide an
audit trail, the Command should revise and implement standard operating procedures to
maintain supporting documentation.




2
    A job order number allows more control, less estimation, and more direct and reliable allocation of costs.


                                                        8
Management Actions
During our audit, the Command components took prompt action to strengthen internal
controls over reporting GWOT funds.

      NSWG-2 began providing a training session on how to report costs under the
       proper operation and cost codes. This training will improve NSWG-2’s reporting
       of obligations and expenditures under the correct operation and cost code.

      NSW Center began tracking and recording actual obligations and expenditures
       monthly. By doing this, NSW Center will improve its capturing of reported
       amounts, which management uses to show how funds are being spent to support
       the mission.

      NSWG-4 created additional job order numbers, which will strengthen its internal
       controls over supporting documentation and provide an audit trail.

We applaud the Command and its components for taking these actions to improve the
internal control weaknesses we identified during our audit.

Management Comments on the Finding
The Commander, Naval Special Warfare Command, Assistant Chief of Staff for Force
Financial Management, expressed appreciation for the audit team’s thorough research
and unbiased review of the Command’s processes. As a result of this audit, the
Command will streamline its processes to improve efficiency and the accuracy of
financial reports. The procedures in place were in accordance with DOD FMR and
included a standard coding structure for contingency operations. However, there was not
a standard coding structure in place to identify the costs using the cost breakdown
structure as required by DOD FMR. The discrepancies identified in this report did not
affect the Command’s reporting and decision-making process. The net result of the
errors identified in the audit was $8,000, which is less than 0.01 percent of its total cost
for GWOT. Additionally, the official accounting system did not contain a field for the
cost breakdown structure, which did not allow it to readily extract the data for reporting
purposes.

Our Response
We appreciate the courtesy and cooperation of the Command’s staff during this audit.
We realize the net dollar amount of these errors was less than 0.01 percent of total costs;
however, we believe that strengthening these internal controls will reduce the risk of
misstatement in the financial reports.




                                             9
Recommendations, Management Comments, and Our
Response
We recommend that the Commander, Naval Special Warfare Command:

1. Design and implement the standardization of coding used to record obligations
and expenditures to compile the Global War on Terror reports to ensure the
accuracy of the reports in accordance with DOD Financial Management Regulation,
Volume 6A, Chapter 2, “Financial Reports Roles and Responsibilities,” November
2008.

Management Comments
The Commander, Naval Special Warfare Command, Assistant Chief of Staff for Force
Financial Management, agreed, stating that the Command was implementing
standardized coding to electronically compile data for GWOT reporting as required by
DOD FMR. This method will improve the accuracy of the reports by reducing the
manual process that the Command currently uses. The estimated completion date is
October 1, 2009.

2. Revise and implement standard operating procedures to:

       a. Validate and report actual expenditures each month,
       b. Report obligations and expenditures under the correct operation and cost
code, and
       c. Maintain adequate supporting documentation, in accordance with DOD
Financial Management Regulation, Volume 12, Chapter 23, “Contingency
Operations,” September 2007, and Volume 6A, Chapter 2, “Financial Reports Roles
and Responsibilities,” November 2008.

Management Comments
The Commander, Naval Special Warfare Command, Assistant Chief of Staff for Force
Financial Management, agreed. By implementing these procedures, the Command will
be able to report actual data as of the official close of business for each monthly report
and meet USSOCOM reporting deadlines. The estimated completion date is
October 1, 2009.

3. Train components to ensure consistent preparation of reports in accordance with
DOD Financial Management Regulation, Volume 12, Chapter 23, “Contingency
Operations,” September 2007.

Management Comments
The Commander, Naval Special Warfare Command, Assistant Chief of Staff for Force
Financial Management, agreed, stating that training components in GWOT report
preparation would ensure consistency in report preparation. The estimated completion
date is October 1, 2009.


                                             10
Our Response
Comments from the Commander, Naval Special Warfare Command, Assistant Chief of
Staff for Force Financial Management, which were endorsed by the Assistant Secretary
of the Navy (Financial Management and Comptroller), Deputy Assistant Secretary
(Financial Operations), are responsive to the recommendations, and no additional
comments are required.




                                          11
Appendix. Scope and Methodology
We conducted this performance audit from December 2008 through July 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed the DOD and Naval Special Warfare Command guidance related to the
internal controls over the Command comptroller operations in support of GWOT. We
obtained our supporting documentation from:

        Naval Special Warfare Group (NSWG) 1,
        NSWG-2,
        NSWG-3,
        NSWG-4,
        Naval Special Warfare (NSW) Headquarters, and
        NSW Center.

We developed the audit universe from the Command’s FY 2008 GWOT Report. The
universe consisted of 511 line items. We summarized the obligations and expenditures
by component, operation, and cost code. The universe consisted of $86.9 million in
obligations and $49.2 million in expenditures.

We reviewed the universe and selected the two cost categories with the highest dollar
amounts to review. The total for obligations was $85.7 million, and the total for
expenditures was $48.1 million for personnel support and operating support categories.
We judgmentally selected 6 line items from the personnel support category and 39 line
items from the operating support category. The table summarizes the number of line
items and the total obligations and expenditures tested, by component.

              Number and Dollar Amounts of Line Items Tested*
   Component Name        Number of         Expenditures     Obligations
                         Line Items
   NSWG-1                    10             $1,931,000      $2,423,000
   NSWG-2                    14              1,671,000        3,325,000
   NSWG-3                     5                541,000          571,000
   NSWG-4                     6              1,053,000        1,391,000
   NSW Headquarters           5              3,372,000        5,925,000
   NSW Center                 5                336,000          535,000
    Total                    45             $8,904,000      $14,170,000
       * Amounts rounded to nearest thousand.



                                                12
Additionally we judgmentally selected 14 line items consisting of 104 expenditures and
determined whether the asset existed or there was sufficient documentation for
performance of the contract. The 14 line items totaled $3 million in expenditures. We
verified existence of the asset for six of the line items, which were serialized at the
component sites. We also verified eight expenditures by reviewing training attendance
rosters or completion certificates.

We evaluated internal controls over the Command’s obligations and expenditures in support
of GWOT. To determine whether controls were effective and adequate, we assessed
management’s internal control procedures and implementation of the DOD FMR
concerning:

      existence and correctness of supporting documentation,
      accuracy of computations,
      use of proper forms for disbursing or deobligating funds,
      certification,
      approval, and
      obligations and expenditures.

Use of Computer-Processed Data
To perform this audit, we used computer-processed data extracted from the Standard
Accounting and Reporting System, Field Level (STARS-FL), which the Command uses
to report obligations and expenditures. Defense Finance and Accounting Service, Rome,
New York, processes all of the Command’s official accounting records through
STARS-FL. We compared reported amounts to several source documents, including
invoices, contracts or requisitions, and receiving reports.

We determined that there were differences between system data and the supporting
documents. However, the differences did not preclude use of the STARS-FL data to
meet the audit objective or change the conclusions in this report. Part of our objective
was to test the accuracy of amounts recorded and reported by the accounting system. Our
audit results, in fact, determined that controls need to be improved to ensure that recorded
and reported amounts in the accounting system are properly supported.

Prior Coverage
No prior coverage has been conducted on the Command’s comptroller operations for
GWOT during the last 5 years.




                                            13
Assistant Secretary of the Navy (Financial Management
and Comptroller) Comments




                   Click to add JPEG file




                                  14
Naval Special Warfare Command Comments




                 Click to add JPEG file




                                15
Click to add JPEG file




               16
Click to add JPEG file




               17
Click to add JPEG file




               18
